No. ______

IN THE

SUPREME COURT OF THE UNITED STATES
DEREK HUTTER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
to the Fifth Circuit Court of Appeals

APPENDIX TO PETITION FOR WRIT OF
CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER
A-1

TABLE OF CONTENTS
Document
1.

Page

March 20, 2020, opinion of the
United States Fifth Circuit
Court of Appeals . . . . . . . . . . . . . . . A-4

2.

February 8, 2019, judgment of the
United States Northern
District Court of Texas . . . . . . . . . . . A-7

3.

February 8, 2019, order of the
United States Northern
District Court of Texas . . . . . . . . . . . A-9

4.

December 28, 2018, report and
recommendation . . . . . . . . . . . . . . . A-13

5.

April 9, 2018, declaration of Derek
Hutter.. . . . . . . . . . . . . . . . . . . . . . . A-36

6.

May 19, 2018, affidavit of Emily
Alexander. . . . . . . . . . . . . . . . . . . . . A-38
A-2

7.

May 19, 2018, affidavit of Daniel Scott
Camp.. . . . . . . . . . . . . . . . . . . . . . . . A-43

8.

May 19, 2018, affidavit of Lindsey
Anastasia Camp.. . . . . . . . . . . . . . . A-47

9.

May 14, 2015, factual resume. . . . . . . . . . A-52

10.

Excerpt of Transcript of October 7, 2015,
sentencing hearing.. . . . . . . . . . . . . A-59

A-3

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10313
UNITED STATES OF AMERICA,
Plaintiff–Appellee,
v.
DEREK HUTTER,
Defendant–Appellant.

Appeal from the United States District Court
for the Northern District of Texas
O R D E R:
Derek Hutter, federal prisoner #48987-177,
seeks a certificate of appealability (COA) to appeal the
denial of his 28 U.S.C. § 2255 motion challenging his
conviction and sentence for enticement of a minor. He
contends that his guilty plea was involuntary because
A-4

his trial counsel did not tell him about the viability of
possible defenses. Hutter further argues that his trial
counsel was ineffective for not offering mitigating
evidence at sentencing and not objecting to the district
court’s consideration of an improper sentencing factor.
A COA may issue if a movant makes “a substantial
showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2); see Miller-El v. Cockrell, 537 U.S.
322, 327 (2003). If the district court denied relief on the
merits, a movant must establish that jurists of reason
could debate the district court’s resolution of his
constitutional claims or that the issues raised were
adequate to deserve encouragement to proceed further.
See Slack v. McDaniel, 529 U.S. 473, 483- 84 (2000).
Hutter has not made the required showing.
Thus, his motion for a COA is DENIED.
[Signature of Don R. Willett]
A-5

DON R. WILLET
UNITED STATES CIRCUIT JUDGE
[Seal of United States Court of Appeals,
Fifth Judicial Circuit]
A True Copy
Certified order issued Mar 20, 2020
[Signature of Lyle W. Cayce]
Clerk, U.S. Court of Appeals, Fifth Circuit

A-6

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DEREK HUTTER,

§

Movant,

§
§ 3:17-cv-3146-M (BT)

v.

§ 3:14-cr-0495-M (BT)
§

UNITED STATES OF AMERICA,
Respondent.

§

§
JUDGMENT

The Court has entered its Order Accepting the
Findings, Conclusions and Recommendation of the
United States Magistrate Judge in this case.
It is therefore ORDERED, ADJUDGED and
DECREED that the petition to vacate, setaside, or
correct sentence under 28 U.S.C. § 2255 is denied.
A-7

The Clerk shall transmit a true copy of this
Judgment, together with a true copy of the Order
accepting

the

Findings,

Conclusions,

and

Recommendation of the United States Magistrate
Judge, to the parties.
SIGNED this 8th day of February, 2019.
[Signature of Barbara M. G. Lynn]
BARBARA M. G. LYNN
CHIEF JUDGE

A-8

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DEREK HUTTER,

§

Movant,

§
§ 3:17-cv-3146-M (BT)

v.

§ 3:14-cr-0495-M (BT)
§

UNITED STATES OF AMERICA,

§

Respondent.
ORDER ACCEPTING FINDINGS. CONCLUSIONS
AND RECOMMENDATION OF THE UNITED
STATES MAGISTRATE JUDGE. AND DENYING
CERTIFICATE OF APPEALABILITY
The United States Magistrate Judge made
Findings, Conclusions and a Recommendation in this
case. Petitioner filed objections, and the District Court
A-9

has made a de nova review of those portions of the
proposed Findings and Recommendation to which
objection was made. The objections are overruled, and
the Court ACCEPTS the Findings, Conclusions and
Recommendation of the United States Magistrate
Judge.
Considering the record in this case and pursuant
to Federal Rule of Appellate Procedure 22(b), Rule
11(a) of the Rules Governing §§ 2254 and 2255
proceedings, and 28 U.S.C. § 2253(c), the Court
DENIES a certificate of appealability. The Court
adopts and incorporates by reference the Magistrate
Judge's Findings, Conclusions and Recommendation
filed in this case in support of its finding that the
petitioner has failed to show (1) that reasonable jurists
would

find

this

Court’s

“assessment

of

the

constitutional claims debatable or wrong,” or (2) that
A-10

reasonable jurists would find “it debatable whether the
petition states a valid claim of the denial of a
constitutional right” and “debatable whether [this
Court] was correct in its procedural ruling.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000). 1
In the event, the petitioner will file a notice of
appeal, the court notes that
()

the petitioner will proceed in forma pauperis on
appeal.

1

Rule 11 of the Rules Governing §§ 2254 and 2255 Cases,
as amended effective on December 1, 2009, reads as follows;
(a) Certificate of Appealability. The district court must issue or
deny a certificate of appealability when it enters a final order
adverse to the applicant. Before entering the final order, the court
may direct the parties to submit arguments on whether a
certificate should issue. If the court issues a certificate, the court
must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. § 2253(c)(2). If the court denies a certificate,
the parties may not appeal the denial but may seek a certificate
from the court of appeals under Federal Rule of Appellate
Procedure 22. A motion to reconsider a denial does not extend the
time to appeal.
(b) Time to Appeal. Federal Rule of Appellate Procedure 4(a)
governs the time to appeal an order entered under these rules. A
timely notice of appeal must be filed even if the district court
issues a certificate of appealability.

A-11

(X)

the petitioner will need to pay the $505.00
appellate filing fee or submit a motion to
proceed in forma pauperis.
SO ORDERED this 8th day of February, 2019.
[Signature of Barbara M. G. Lynn]
BARBARA M. G. LYNN
CHIEF JUDGE

A-12

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DEREK HUTTER,

§

Movant,

§
§ 3:17-cv-3146-M (BT)

v.

§ 3:14-cr-0495-M (BT)
§

UNITED STATES OF AMERICA,

§

Respondent.
FINDINGS, CONCLUSIONS, AND
RECOMMENDATION OF THE UNITED STATES
MAGISTRATE JUDGE
Movant Derek Hutter, a federal prisoner, filed a
motion to vacate, setaside, or correct sentence under 28
U.S.C. § 2255. The district court referred the resulting
civil action to the United States magistrate judge
A-13

pursuant to 28 U.S.C. § 636(b) and a standing order of
reference. For the following reasons, the motion should
be denied.
I.
Movant pleaded guilty to enticement of a minor in
violation of 18 U.S.C. § 2422(b). On October 7, 2015,
the district court sentenced him to 264 months in
prison. On August 16, 2016, the Fifth Circuit Court of
Appeals dismissed his appeal a frivolous. United States
v. Hutter, No. 15-11052 (5th Cir. Aug. 16, 2016) (per
curiam).
On November 13, 2017, Movant filed the instant
§ 2255 motion. He argues he received ineffective
assistance of counsel that rendered his guilty plea
involuntary when:
1.

Counsel failed to inform him of his
available defenses;
A-14

2.

Counsel failed to present certain
mitigating evidence at sentencing; and

3.

Counsel failed to object to the Court’s
consideration of impermissible factors
at sentencing.
II.

The following stipulated facts are taken from the
Factual Resume filed in the criminal case on May 14,
2015:
[F]rom on or about January 1, 2014,
through on or about September 15, 2014,
in the Dallas Division of the Northern
District of Texas, [Movant] used the
Internet, email, and his cell phone,
facilities and means of interstate and
foreign

commerce,

to

knowingly

persuade[], induce[], and entice[] a minor,
A-15

Jane Doe, who was between the ages of
13 and 14 years old, to engage in sexual
activity for which he could have been
charged

with

a

criminal

offense,

specifically a violation of Sec. 21.11,
Texas Penal Code, that is, Indecency with
a Child, which makes it a crime to
intentionally and knowingly, with a child
under the age of 17, with intent to gratify
the sexual desire of any person, cause the
child to expose the child’s genitals.
More specifically, Hutter was the youth
minister at the
South Garland Baptist Church. The
minor girl, Jane Doe, was one of the
youth who participated in his youth
group. Hutter used his cell phone, the
A-16

Internet, and email to communicate with
Jane Doe as well as person to person
contact at youth group. During these
conversations, he convinced Jane Doe to
have a sexual relationship with him.
Hutter sexually assaulted Jane Doe on
several occasions between on or about
January 1, 2014 through on or about
September 15, 2014, by penetrating her
genitals with his penis.
In addition, Hutter emailed Jane Doe and
requested that she send him sexually
explicit and lewd and lascivious photos of
herself naked and in different sexual
positions. In particular, on August 15,
2014, Hutter requested that Jane Doe
text him specific photos of herself nude
A-17

including: (1) placing objects in her anus,
(2) putting her panties inside her
genitals, (3) putting her fingers inside her
genitals and her anus, and (4) taking a
photo of herself lubricated and naked.
Hutter admits and acknowledges that he
communicated via the Internet, his email
account and a cell phone with Jane Doe
knowing that she was between the ages
of 13 and 14 years old. The purpose of
speaking with Jane Doe was to entice her
to engage in sexual acts with him,
including exposing her genitals to him to
gratify his sexual desire. He also admits
to requesting that she send him sexually
explicit photos of herself.
United States v. Hutter, No. 3:14-cr-45-M, Factual
A-18

Resume 2-3 (ECF No. 19.)
III.
To sustain a claim of ineffective assistance of
counsel, Movant must show that: (1) counsel’s
performance was deficient; and (2) the deficient
performance prejudiced the defense so gravely as to
deprive Movant of a fair trial. Strickland v.
Washington, 466 U.S. 668, 687 (1984). In Strickland,
the Court stated that “[j]udicial scrutiny of counsel’s
performance must be highly deferential” and “every
effort [must] be made to eliminate the distorting effects
of hindsight.” Strickland, 466 U.S. at 689. Courts,
therefore, must “indulge a strong presumption that
counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id.
Even if counsel is proven deficient, Movant also
must prove prejudice. To prove such prejudice, Movant
A-19

must show “a reasonable probability that the result of
the proceedings would have been different but for
counsel’s unprofessional errors.” Crane v. Johnson, 178
F.3d 309, 312 (5th Cir. 1999) (citing Strickland, 466
U.S. at 694). “[T]he mere possibility of a different
outcome is not sufficient to prevail on the prejudice
prong.” Id. “Rather, the defendant must demonstrate
that the prejudice rendered sentencing ‘fundamentally
unfair or unreliable.’” Id. (quoting Lockhart v. Fretwell,
506 U.S. 364, 369 (1993)).
When a movant argues his guilty plea was not
voluntary due to the ineffective assistance of counsel,
he must show that his counsel’s advice to plead guilty
fell below the range of competence demanded of an
attorney in a criminal case. Hill v. Lockhart, 474 U.S.
52, 56 (1985); Armstead v. Scott, 37 F.3d 202, 206 (5th
Cir. 1994). Further, he must show prejudice by
A-20

establishing “but for his counsel’s alleged erroneous
advice, he would not have pleaded guilty but would
have insisted upon going to trial.” Armstead, 37 F.3d at
206.
1.

Guilty Plea
Movant argues his counsel failed to inform him

of available defenses, which rendered his guilty plea
involuntary. He states counsel failed to advise that the
following were viable defenses: (1) the victim falsely
alleged a sexual relationship with Movant because she
was involved in a physical relationship with her
boyfriend that she was afraid would be exposed; (2) the
victim “had an addiction to pornography websites and
she was having ‘masturbation issues’ (and a review of
her electronic media and databases confirmed these
problems);” (3) “the alleged victim had a reputation in
the community for being untruthful;” and (4) “weeks
A-21

before the charge in this case, the alleged victim had
been caught at a church retreat with another male.”
(ECF No. 1 at 5.) Movant also states he has “unique
anatomical features,” and that the victim did not
mention these features even though she should have
been aware of them if her allegations were true. (Id.
at 6 n.5.).
Movant has failed to show he received ineffective
assistance of counsel. Although he claims the victim’s
electronic devices would show she had an addiction to
pornography and “masturbation issues,” he has
submitted nothing but his own self-serving statements
to support this claim. Likewise, he has submitted no
evidence supporting his claims that the victim had a
reputation for being untruthful, or that she was in a
physical relationship with her boyfriend and was
afraid this relationship would be exposed.
A-22

Movant also submitted an affidavit claiming he
found the victim and another male engaging in sexual
activity during a church retreat, and that he
reprimanded both of them. (ECF No. 16-1.). He claims
the victim and this unidentified male were angry and
“had cause to harm him.” (Id.) Although Movant stated
in his Reply that he would submit affidavits from
members of the church supporting this claim, (ECF No.
14 at 2 n.2), he has submitted no evidence for this
claim except his own affidavit. A movant’s “own
affidavit,

containing

self-serving

conclusional

allegations, is insufficient” to warrant habeas relief.
United States v. Merrill, 340 Fed Appx. 976, 978 (5th
Cir. 2009); see also Ross v. Estelle, 694 F.2d 1008, 1012
(5th Cir. 1983) (emphasizing that mere conclusory
allegations do not raise constitutional issues in habeas
proceedings).
A-23

Movant also argues counsel failed to inform him
of the defense that someone else was responsible for
the evidence on his computer and cell phone. He states
his “cell phone and computer were accessible by
everyone in the church and his passwords to these
devices were in plain view to anyone who entered his
office.” (ECF No. 1 at 6.) He also submitted affidavits
from three people who were members of an
“Accountability Group,” who each stated they had
access and the passwords to Movant’s electronic
devices. (ECF No. 17.)
Movant, however, was aware of these facts prior
to entering his guilty plea, and the court informed him
that he was entitled to a jury trial where he had the
right to present his evidence, cross-examine witnesses,
and call witnesses in his favor. (ECF No. 46 at 5-6.) He
stated he understood these rights, (id. at 6), and chose
A-24

to plead guilty. Further, a forensic extraction of
Movant’s phone showed it had a feature that allowed
Movant to hide images or files. A forensic examiner
accessed these hidden images and found nine nude
photos of the victim. (ECF No. 29 at 25.) Finally,
although Movant argues the victim would have been
aware of his “unique anatomical features,” had she
been telling the truth about a sexual relationship,
there is no evidence in the record that the victim was
not familiar with Movant’s anatomy.
Movant also claims he informed counsel that he
was innocent, but counsel stated, “we can’t beat this,”
and “if you don’t enter a guilty plea, you will get the
maximum sentence and never see your wife and
daughter again.” (ECF No. 1 at 4.) A defense attorney,
however, “should make informed predictions about the
consequences of either pleading guilty or going to
A-25

trial.” United States v. Cothran, 302 F.3d 279, 284 (5th
Cir. 2002). A defense attorney’s warning about the
potential for a lengthy prison sentence does not
compromise the voluntariness of a guilty plea. Urseti v.
Lynaugh, 821 F.2d 1099, 1102 (5th Cir. 1987) (finding
plea was voluntary where counsel warned defendant
he would be lucky to get 99 years if he went to trial).
Movant’s claim is without merit.
Movant

argues

his

counsel’s

ineffective

assistance rendered his guilty plea involuntary. A
defendant’s guilty plea must be made voluntarily, and
the

defendant

must

“make

related

waivers

knowing[ly], intelligent[ly], [and] with sufficient
awareness of the relevant circumstances and likely
consequences.” United States v. Ruiz, 536 U.S. 622, 628
(2002) (quoting Brady v. United States, 397 U.S. 742,
748 (1970)). A determination of whether a defendant
A-26

understands the consequences of his guilty plea,
however, does not require a trial court to determine
that the defendant has a perfect understanding of the
consequences. The court must only ascertain whether
the

defendant

has

a

realistic

or

reasonable

understanding of his plea. See United States v. Gracia,
983 F.2d 625, 627-28 (5th Cir. 1993).
Courts considering challenges to guilty plea
proceedings “have focused on three core concerns:
absence of coercion, the defendant’s understanding of
the charges, and a realistic understanding of the
consequences of the guilty plea.” Gracia, 983 F.2d at
627-28. A realistic understanding of the consequences
of a guilty plea means that the defendant knows the
“immediate and automatic consequences of that plea
such as the maximum sentence length or fine.” Duke v.
Cockrell, 292 F.3d 414, 416 (5th Cir. 2002). Further,
A-27

“[w]hen the record of the Rule 11 hearing clearly
indicates that a defendant has read and understands
his plea agreement, and that he has raised no question
regarding a waiver-of-appeal provision, the defendant
will be held to the bargain to which he agreed.” United
States v. McKinney, 406 F.3d 744, 746 (5th Cir. 2005)
(quoting United States v. Portillo, 18 F.3d 290, 293 (5th
Cir. 1994)).
Here, the record shows Movant voluntarily
pleaded guilty. Movant stated he discussed his case
and guilty plea with his attorney. (ECF 46 at 8.) He
stated he read the superseding indictment with his
attorney, and that he understood the charge. (Id. at
11.) The prosecutor read aloud the essential elements
of the offense, and Movant admitted he understood
each essential element and that he committed each
essential element. (Id. at 11-12.) He stated he read the
A-28

plea agreement and plea agreement supplement, that
he reviewed them with his attorney, and that he
understood everything in them. (Id. at 14.) He stated
he voluntarily signed the plea agreement. (Id. at 16.)
He stated he read the factual resume, that he
discussed the factual resume with his attorney, and
that the statements in the factual resume were true
and correct. (Id. at 19.)
Although

Movant

claims

his

plea

was

involuntary because he relied on his counsel’s
statement that “his sentence would likely be between
five and ten years of imprisonment,” (ECF No. 1 at
4-5), the record contradicts this claim. At the plea
hearing, the prosecutor read aloud the minimum and
maximum penalties for the offense. (ECF No. 46 at 17.)
The minimum penalty was ten years, and the
maximum penalty was life. (Id.) Movant stated he
A-29

understood the minimum and maximum penalties. (Id.
at 18.) He stated he understood the judge would
determine his sentence and that he could not depend
on anyone’s prediction, including his attorney’s, as to
exactly what his sentence would be. (Id.) Movant has
failed to show his guilty plea was not knowingly and
voluntarily entered.
2.

Mitigating Evidence
Movant claims counsel was ineffective when

counsel: (1) failed to present expert testimony and a
psycho-sexual evaluation to show he is not a risk for
committing future sexual crimes; and (2) counsel
should have “presented statistics from other cases with
similar charges to argue for a lower sentence.” (ECF
No. 1 at 9.)
Movant has submitted no expert evidence that
he is not a risk for committing future sexual crimes.
A-30

Although he claims he was evaluated by Psychologist
Dr. Judith Curtis, he states “Dr. Curtis is dealing with
some medical issues, which has delayed the completion
of her written report. . . . As soon as Dr. Curtis’ report
is completed, undersigned counsel will provide the
report to the Court.” (ECF 14 at 4 n. 4.) Movant has
submitted no expert report or other evidence
supporting this claim. The claim should be denied. See
Martin v. McCotter, 796 F.2d 813, 819 (5th Cir. 1986)
(stating “hypothetical or theoretical testimony will not
justify the issuance of a writ”).
Movant has also failed to show counsel was
ineffective when counsel did not present statistics from
other cases with similar charges to argue for a lower
sentence. Movant cites only one case, the case of former
United States Representative Anthony Weiner, to
support his claim. (ECF No. 1 at 9.) Movant, however,
A-31

has failed to show that Anthony Weiner pleaded guilty
to the same charge, or that the facts in Anthony
Weiner’s case were similar to the facts in his case. He
has failed to show that but for his counsel’s failure to
raise the Anthony Weiner case at sentencing, there is
a reasonable probability that his sentence would have
been lower. This claim should be denied.
3.

Sentencing
Movant claims counsel failed to object when the

district judge improperly considered his pending state
court charge for sexual battery, and when the district
judge stated Movant had committed rape.
At sentencing, the district court stated:
For all intents and purposes, although
the crime is charged differently in federal
court, you raped a child.
***
A-32

You are a person who raped a child. And
let’s not call it something else, because
that’s what you did.
(ECF No. 47 at 24, 26.)
Movant argues he did not plead guilty to rape,
and he was not convicted of the state charge at the
time of sentencing, therefore the court’s consideration
of these factors was not permissible. Movant, however,
admitted that he repeatedly had sexual intercourse
with the victim, who was between thirteen and
fourteen years old.1 (ECF No. 19 at 2-3.) Further,
criminal conduct that does not result in a conviction
may be considered by the court at sentencing. United
States v. Fuentes, 775 F.3d 213, 219 (5th Cir.2014)

1

Statutory rape laws generally prohibit sexual intercourse
between an adult and a minor who is under the age of consent.
Esquivel-Quintana v. Sessions, __ U.S. __, 137 S. Ct. 1562, 1569
(2017). Under Texas law, the age of consent is seventeen. Tex.
Penal Code § 22.011

A-33

(citing United States v. Lopez-Velasquez, 526 F.3d 804,
807 (5th Cir. 2008)). This claim is without merit.
IV.
For the foregoing reasons, the motion to vacate,
set-aside, or correct sentence under § 2255 be
DENIED.
Signed December 26, 2018.
[Signature of Rebecca Rutherford]
REBECCA RUTHERFORD
UNITED STATES MAGISTRATE JUDGE

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO OBJECT
A copy of this report and recommendation shall
be served on all parties in the manner provided by law.
Any party who objects to any part of this report and
recommendation must file specific written objections
within 14 days after being served with a copy. See 28
A-34

U.S.C. § 636(b)(1); FED. R.CIV. P. 72(b). To be specific,
an objection must identify the specific finding or
recommendation to which objection is made, state the
basis for the objection, and specify the place in the
magistrate judge’s report and recommendation where
the disputed determination is found. An objection that
merely incorporates by reference or refers to the
briefing before the magistrate judge is not specific.
Failure to file specific written objections will bar the
aggrieved party from appealing the factual findings
and legal conclusions of the magistrate judge that are
accepted or adopted by the district court, except upon
grounds of plain error. See Douglass v. United Services
Automobile Ass’n, 79 F.3d 1415, 1417 (5th Cir. 1996),
modified by statute on other grounds, 28 U.S.C. §
636(b)(1) (extending the time to file objections to 14
days).
A-35

IN THE
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DEREK HUTTER,
Petitioner,

Case Nos: 3:17-CV-3146-M-BF

v.

(3:14-CR-495-M(l))

UNITED STATES OF AMERICA,
Respondent.
DECLARATION OF DEREK HUTTER
1.

I am the Petitioner in the instant 28 U.S.C. §

2255 action ai1d I was the defendant in case number
3:14-cr-495-M(l).
2.

At the time the charge was brought, I was a

youth minister at a church.
3.

My cellphone and computer were accessible by

everyone in the church. I often left my cellphone and
A-36

computer unattended in my office in the church.
4.

My passwords to my cellphone and computer

were in plain view to anyone who entered my office.
5.

Prior to the dates of the email and the other

“electronic evidence,” the alleged victim went on a
church retreat. During the retreat, I caught the alleged
victim engaging in sexual activity with a male. I
reprimanded the alleged victim and the male, and told
them to refrain from farther engaging in any such
conduct.
6.

Both the alleged victim and the male were

ang1y with me for reprimanding them and had a
motive to cause harm to me.
I made the statements in this Declaration under
penalty of perjury.
[signature of Derek Hutter]
Derek Hutter
A-37

IN THE
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DEREK HUTTER,
Petitioner,

Case Nos: 3:17-CV-3146-M-BF

v.

(3:14-CR-495-M(l))

UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF EMILY ALEXANDER
I, Emily Alexander, am over the age of eighteen and
understand the obligations of an oath. Being duly
sworn, I hereby state the following:
1.

I am a resident of Garland, Texas.

2.

I am currently employed as a Family Based

Social Services Worker.
3.

I have known Derek Hutter since I was a junior
A-38

in high school.
4.

I was one of the original members of the

Accountability Group.
5.

I always felt comfortable going to Derek Hutter

and speaking with him individually for confidential
advice.
6.

I was a victim of child abuse and am now a

survivor. Mr. Hutter played a key role in my healing.
7.

Mr. and Mrs. Hutter worked as a team, most

often together and always available for the members of
the youth group.
8.

Mr. Hutter was trusting and open with the

Accountability Group.
9.

I knew the personal passwords or codes for

access to the Hutter’s home and computers, phones and
other electronic devices owned by Derek Hutter.
10.

All members of the Accountability Group has the
A-39

same access.
11.

For example (I still remember to this day), the

Hutter’s front door code, to enter their home, was the
birthday of their daughter. The password to their
home computer was some form of initials and a
birthday or anniversary date.
12.

I

never

saw

Derek

Hutter

having

any

inappropriate interaction physically with any youth
member except for a hug which he gave to all members
of the youth group.
13.

I was contacted by [redacted] (the young lady in

this matter) on Facebook in 2014 because Mr. Hutter
had mentioned that [redacted] and I had shared some
of the same experiences and may want to be in contact.
14.

I did not continue contact with [redacted] on

Facebook after [redacted] sent me a message that lead
me to doubt her true intentions towards her
A-40

relationship with Mr. Hutter.
15.

I do not believe Derek Hutter is guilty of the

charges brought against him.
16.

During the Hutter investigation I was never

questioned by the District Attorney, Law Enforcement
or Derek Hutter’s attorney
17.

I offered to assist in any way needed. I was

asked to compose a letter less than a page in length,
acknowledging Derek Hutter’s good character.
18.

I believe the attorneys never gave Derek Hutter

a chance and scared him into pleading guilty.
FURTHER, Affiant sayeth not,
[signature of Emily Alexander]
Emily Alexander
NOTARY PUBLIC
I, the undersigned Notary Public, do hereby attest that
the Affiant did not appear before this 19 day of May,
A-41

2018, and upon his oath, did affix his signature hereto.
[signature of Devin Joseph Wilhelm]
NOTARY PUBLIC
My Commission Expires:

SEAL

[seal of notary public:
DEVIN JOSEPH WILHELM
Notary ID # 131501220
My Commission Expires
March 23, 2022]
State of Texas
County of Rockwall
This instrument was acknowledged before me
on 19 day of May, 2018 by Devin Wilhelm
[signature of Devin Wilhelm]
Notary Public’s Signature
My Commission Expires 131501220

A-42

IN THE
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DEREK HUTTER,
Petitioner,

Case Nos: 3:17-CV-3146-M-BF

v.

(3:14-CR-495-M(l))

UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF DANIEL SCOTT CAMP
I, DANIEL SCOTT CAMP, am over the age of eighteen
and understand the obligations of an oath. Being duly
sworn, I hereby state the following:
1.

I am a resident of Waco, Texas.

2.

I am currently employed as the Pastor of Shiloh

Baptist Church in Crawford, Texas.
3.

I have known Derek Hutter since 2006.
A-43

4.

Mr. Hutter was my mentor and it was because

of the example he set for me and the other members of
our youth group which led me to become a Pastor.
5.

I was a member of Mr. Hutter’s “Accountability

Group,” which Mr. Hutter created.
6.

I knew, and know, Mr. Hutter to be a wonderful,

reliable, upstanding and respected person.
7.

Mr. Hutter always maintained an open-door

policy to all youth members.
8.

Mr. Hutter was extremely trusting and open

with the youth group members and even more so with
members of the Accountability group.
9.

I, as did everyone else in the Accountability

group, knew all of Mr. Hutter’s passwords and codes as
we all were freely allowed usage of Mr. Hutter’s
computer and other electronic devices.
10.

I never saw Mr. Hutter have any inappropriate
A-44

physical interaction with any youth member.
11.

I knew, and know, Mr. Hutter to be an

upstanding man of faith not capable of child
enticement, pornography or sexual abuse.
12.

I never became aware of any such bad behavior

nor did I ever hear rumors of such.
13.

I was never questioned by the District Attorney,

Law Enforcement or Mr. Hutter’s attorney.
14.

When I asked to help I was told to compose a

letter for Mr. Hutter but was told not to make
statements of Mr. Hutter’s innocence.
15.

I am compelled to keep trying to help Mr. Hutter

and will do whatever I can to help him.
He was my mentor and he is a good man.
FURTHER, Affiant sayeth not.
[signature of Daniel Scott Camp]
DANIEL SCOTT CAMP
A-45

NOTARY PUBLIC
I, the undersigned Notary Public, do hereby attest that
the Affiant did appear before me this 19 day of May,
2018, and upon his oath, did affix his signature hereto.
[signature of Michael Stewart]
NOTARY PUBLIC
My Commission Expires:

SEAL

[seal of notary public:
MICHAEL STEWART
NOTARY PUBLIC STATE OF TEXAS
MY COMM. EXP. 8/25/2018
NOTARY ID 12993468-7]

A-46

IN THE
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DEREK HUTTER,
Petitioner,

Case Nos: 3:17-CV-3146-M-BF

v.

(3:14-CR-495-M(l))

UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF LINDSEY ANASTASIA CAMP
I, Lindsey Anastasia Camp, am over the age of
eighteen and understand the obligations of an oath.
Being duly sworn, I hereby state the following:
1.

I am a resident of Waco, Texas.

2.

I am currently employed in the field of child

development with Piper Child Development Center at
Baylor University.
A-47

3.

I hold a bachelor’s degree in Neuroscience with

a minor in Child and Family Studies.
4.

I recently graduated, earning a master’s degree

in Family Studies.
5.

I have known Derek Hutter since 2006.

6.

I was a member of the interview committee

which was, at that time, considering Mr. Hutter for the
position of Youth Minister at South Garland Baptist
Church.
7.

It was my opinion then, and now, that Mr.

Hutter was the best candidate for the position.
8.

I would describe Mr. Hutter as genuine,

compassionate, attentive, loving and kind.
9.

I always felt comfortable in the presence of Mr.

Hutter.
10.

I was one of the original members of the

“accountability Group,” a group Mr. Hutter created at
A-48

the Church.
11.

The purpose of this group was to encourage

those with leadership potential to grow individually
stronger in faith and everyday issues.
12.

Mr. Hutter was very trustworthy and open with

the youth group.
13.

Mr. Hutter’s wife, Kristi, worked very closely

with Derek and the youth group. Derek and Kristi
were almost always together and were very caring
towards the youth group members.
14.

His passwords, codes and/or means of access to

all of his electronic devices were given to me as well as
all the other members of the group to enter Mr.
Hutter’s office and home to access the computer and
other electronic devices as needed for different youth
activities.
15.

Mr. Hutter was very open and honest with all
A-49

his youth members.
16.

I never saw Mr. Hutter having any physical

interaction with any youth member except for a
welcoming hug, which he gave all members of the
group.
17.

Because of my work experience and training, I

do not believe Mr. Hutter meets any of the criteria for
a child abuser.
18.

My position requires that I must receive child

abuse training every year.
19.

During the Hutter investigation I was never

questioned by the District Attorney, Law Enforcement
or Mr. Hutter’s Attorney.
20.

I offered to assist in any way needed. I was

simply asked to compose a letter less than a page in
length, acknowledging Mr. Hutter’s good character.
21.

I support Mr. Hutter whole heartedly and hope
A-50

that the truth will someday come forth.

FURTHER, Affiant sayeth not.
[signature of Lindsey Anastasia Camp]
LINDSEY ANASTASIA CAMP
NOTARY PUBLIC
I, the undersigned Notary Public, do hereby attest that
the Affiant did appear before me this 19 day of May,
2018, and upon his oath, did affix his signature hereto.
[signature of Michael Stewart]
NOTARY PUBLIC
My Commission Expires:

SEAL

[seal of notary public:
MICHAEL STEWART
NOTARY PUBLIC STATE OF TEXAS
MY COMM. EXP. 8/25/2018
NOTARY ID 12993468-7]
A-51

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
UNITED STATES OF AMERICA
v.

NO. 3:14-CR-495-M

DEREK HUTTER
FACTUAL RESUME
Derek Hutter, (the defendant), E.X. Martin, (the
defendant’s attorney, and the United States of
America, (the government) agree to the law and facts
as follows:
ELEMENTS OF THE OFFENSE
Count One
Enticement of a Minor
(Violation of 18 U.S.C. § 2422(b))
To establish the offense alleged in Count One of
the Superseding Information, the government must
A-52

prove the following elements beyond a reasonable
doubt:
First:

That the defendant knowingly used a
facility or means of interstate commerce,
that is, the telephone or the Internet, to
persuade, induce, entice, or coerce, an
individual under the age of eighteen (18)
to engage in sexual activity, or attempted
to do so;

Second:

That the defendant believed that such
individual was less than eighteen (18)
years of age; and

Third:

That the defendant could have been
charged with a criminal offense for
engaging in the specified sexual activity.
STIPULATED FACTS
The stipulated facts that support the defendant’s
A-53

plea of guilty to Count One of the Superseding
Information are as follows:
1.

Hutter admits that from on or about January 1,

2014, through on or about September 15, 2014, in the
Dallas Division of the Northern District of Texas, he
used the Internet, email, and his cell phone, facilities
and means of interstate and foreign commerce, to
knowingly persuaded, induced and enticed a minor,
Jane Doe, who was between the ages of 13 and 14
years old, to engage in sexual activity for which he
could have been charged with a criminal offense,
specifically a violation of Sec. 21.11, Texas Penal Code,
that is, Indecency with a Child, which makes it a crime
to intentionally and knowingly, which a child under
the age of 17, with intent to gratify the sexual desire of
any person, cause the child to expose the child’s
genitals.
A-54

2.

More specifically, Hutter was the youth minister

at the South Garland Baptist Church. The minor girl,
Jane Doe, was one of the youth who participated in his
youth group. Hutter used his cell phone, the Internet,
and email to communicate with Jane Doe as well as
person to person contact at the youth group. During
these conversations, he convinced Jane Doe to have a
sexual relationship with him.

Hutter sexually

assaulted Jane Doe on several occasions between on or
about January 1, 2014 through on or about September
15, 2014, by penetrating her genitals with his penis.
3.

In addition, Hutter emailed Jane Doe and

requested that she send him sexually explicit and lewd
and lascivious photos of herself naked and in different
sexual positions. In particular, on August 15, 2014,
Hutter requested that Jane Doe text him specific
photos of herself nude including: (1) placing objects in
A-55

her anus, (2) putting her panties inside her genitals,
(3) putting her fingers inside her genitals and anus,
and (4) taking a photo of herself lubricated and naked.
4.

Hutter admits and acknowledges that he

communicated via the Internet, his email account and
a cell phone with Jane Doe knowing that she was
between the ages of 13 and 14 years old. The purpose
of speaking with Jane Doe was to entice her to engage
in sexual acts with him, including exposing her
genitals to him to gratify his sexual desire. He also
admits to requesting that she send him sexually
explicit photos of herself.
5.

Hutter admits that he used the Internet, his cell

phone and his email in the Northern District of Texas
when he engaged in the conduct described in Count
One of the Superseding Information. He acknowledges
that his cell phone, email, and the Internet are
A-56

facilities of interstate and foregone commerce. Hutter
also acknowledges that it is a crime in the State of
Texas, specifically a violation of Sec. 21.11, Texas
Penal Code, that is, Indecency with a Child, to
intentionally and knowingly, with a child under the
age of 17, with intent to gratify the sexual desire of any
person, to cause the child to expose the child’s genitals.
AGREED TO AND SIGNED this 14 day of May, 2015.
JOHN R. PARKER
ACTING UNITED STATES ATTORNEY
[signature of Derek Hutter]
DEREK HUTTER
Defendant

[signature of Camille E. Sparks]
CAMILLE E. SPARKS
Assistant United States Attorney
A-57

Texas State Bar No. 00790878
1100 Commerce Street, Third Floor
Dallas, Texas 75242-1699
Telephone: 214.659.8600
Facsimile: 214.659.8809
Email: Camille.Sparks@usdoj.gov

[signature of E.X. Martin]
E.X. MARTIN
Attorney for Defendant

A-58

Excerpt of Transcript of October 7, 2015,
sentencing hearing
For all intents and purposes, although the crime
is charged differently in federal court, you raped a
child. You didn’t do it once. You didn’t do it twice. You
did it twenty times. You did it in your own home with
your own child there. And it is a monstrous act for
which you and you alone bear responsibility. And you
did it in the context of a position of ultimate trust, a
minister, a youth minister, an accountability youth
minister. I can’t think of a structure in which a person
should be expected to exercise more exemplary
behavior than that.
And so context is everything here. The context
you want me to see is the good you did. And I have
letters from people who were active in your church,
including adults who were youth when you were their
A-59

pastor, and apparently did not engage in any
inappropriate behavior. And I’ll take that as a given.
But it doesn’t relieve you of any responsibility
for what you did to and with this child. Her life is
forever different from what it would be but for your
role in it, negatively so, negatively so. You’re put in a
position to have a positive impact on the life of the
youth you encounter, to minister to them, not to abuse
them.
And so I appreciate very much your mother
supporting you. I appreciate that your mother’s heart
is broken. The hearts of your family and friends are all
broken, because of your betrayal of them and what you
stood for.
And I’m not interested in trying to talk your
family and your friends out of the context that they are
putting this offense so that they can continue to be
A-60

supportive of you.

That is their privilege and

prerogative. And whatever alleviates their pain, I hope
they will continue to engage in that frame of reference
for what you did.
But I’m not going to put it in that context. I’m
going to look at the cold, hard facts of what you did, as
I have to. And it is simply outrageous behavior. It’s
not an incident, as people called it. It is not a mistake.
It is a course of conduct over a lengthy period that is
just the betrayal of everything that you allegedly stood
for.
And I need you to understand that that is the
way I see it and the context in which I think this
conduct should be punished.
Most of the cases in which I see Ms. Sparks –
and I know she won’t be offended when I tell her I wish
I saw less of her, because what comes with her is the
A-61

worst part of my job. And I know she knows I feel that
way about it. It’s the worst part of my job, because the
kinds of things that I have to see and consider and she
sees and considers every day are awful. But the vast
majority of those cases, there’s no contact whatsoever
between an adult and a child, none.

It is people

looking at and trading grotesque, abusive pictures of
children, but not touching them. And so you’re in a
different category of altogether.
You are a person who raped a child. And let’s
not call it something else, because that’s what you did.
And I want to hear from you – I wanted to hear from
you and didn’t – genuine remorse, not as it affects you,
but as it affects “Jane” and your family, but
particularly “Jane”, because although your – your child
and your wife and your parents and your in-laws and
your many friends who are here in the courtroom are
A-62

having to deal with very severe consequences of your
behavior, the number one person to deal with the
consequences of your behavior is “Jane”. And I never
heard you express genuine remorse and regret about
that. It’s as if there is some abstraction to this. And
it’s not abstract.
And for you ultimately to recover from what you
did, when your daughter will be an adult – not a child
– an adult – when you get out of prison, your daughter
will be an adult. You’ve got to internalize, deal with,
and accept what you did. It’s not some abstract little
fall from grace. It is a serious crime, that although it
didn’t involve violence in the traditional way, is a
violent act, because a child cannot consent to this kind
of sexual contact.
And as your wife pointed out, I don’t have a
crystal ball; I don’t have a mind-gazer. I can’t read
A-63

your mind, but I can hear your words. And you have
not arrived at what I believe is the point of genuine
remorse and recovery from what you did. Because you
are seeing yourself as sort of a victim of a kind, and
you are not that.
So I regard this as an extremely serious offense.
It is very easy to treat it as something else, because
“Jane” has made a – to the extent I can see it, a kind of
recovery.

I’m not a psychologist.

I’m not a

psychiatrist, but I will volunteer to say to “Jane” and
her parents that this isn’t going to be over tomorrow or
the next day or the next year. This is probably a
lifetime of therapy. And I hope I’m wrong, and I’ll be
delighted if I am.
But you have stolen her childhood from her.
And you have turned a child into an adult for sexual
gratification of your own. And that your wife and
A-64

friends have forgiven you for that is a wonderful gift to
you, but I don’t. I’m not your Lord and maker. And
you will have to see your Lord and maker at the end of
your life to see if you have made up for what you did.
But for me, this is not about forgiveness. I do not
forgive you. It’s not my role to do that. I hope that
“Jane” will take comfort in forgiving you, showing
compassion to you. She has the right and privilege to
do that.

A-65

